              LEGAL SERVICES CORPORATION
              OFFICE OF INSPECTOR GENERAL




               REVIEW OF GRANTEE'S
                TRANSFEROFFUNDS
              AND COMPLIANCE WITH
           PROGRAM INTEGRITY STANDARDS




Grantee: Legal Services of South Central Michigan, Inc.
                      Recipient No. 423010
                        Report No. 03-03

                           June 2003
                         www.oig.lsc.gov
                                                                            Legal Services Corporation
                                                                            Office of lnspector General




Mr. Robert-F. Gillett
Executive Director
Legal Services of South Central Michigan, Inc.
420 North Fourth Avenue
Ann Arbor, Michigan 48104

Dear Mr. Gillett:

       Attached is our audit report on the Legal Service of South Central Michigan's
transfer of funds and compliance with program integrity standards. We considered your
comments on the draft report in finalizing the report, including your disagreement with
our finding and recommendation. Your comments are included in Appendix I. We
made some changes to the report as a result of your comments, however, we continue
to believe that our finding is valid and our recommendation should be implemented.

       Please provide this office a corrective action plan addressing the
recommendation within 30 days. The corrective action plan should include a description
of any action taken or planned to implement the recommendation and the date
corrective action will be completed.

       Copies of this report will be sent to the Chair of South Central Michigan's Board
of Directors, LSC management, and will be available to the public via the OIG's website.

     If you have any questions, please contact Richard Adkins on (202) 295-1661 or
me on (202) 295-1651. 1 appreciate the courtesy and cooperation you and your staff
extended to my staff during the audit.

                                                 Sincerely,



                                                 Leonard J. W&czur
                                                 Acting lnspector General

Enclosure




                                                                             3333 K Street, NW 3rd Floor
                                                                             Washington, DC 20007-3522
                                                                             Phone 202.295.1500 Fax 202.337.6797
                                                                             www.lsc.gov
              LEGAL SERVICES CORPORATION
              OFFICE OF INSPECTOR GENERAL




               REVIEW OF GRANTEE'S
                TRANSFEROFFUNDS
              AND COMPLIANCE WITH
           PROGRAM INTEGRITY STANDARDS




            II"         LSC
Grantee: Legal Services of South Central Michigan, Inc.
                      Recipient No. 423010

                        Report No. 03-03

                           June 2003
                         www.oig.lsc.gov
                              TABLE OF CONTENTS


RESULTS OF AUDIT ................................................................................. 1

BACKGROUND ......................................................................................... 4

OBJECTIVES. SCOPE. and METHODOLOGY .......................................... 4

SUMMARY OF GRANTEE'S COMMENTS ON DRAFT
REPORT AND THE OIG'S RESPONSE ................................................... 6

APPENDIX I .Grantee Comments ....................................................... I .1

APPENDIX II .OIG Staff Responsible for the Audit and Report ............. II -1
       The Legal Services Corporation (LSC) Office of Inspector General (OIG)
conducted this audit to determine whether Legal Services of South Central
Michigan (grantee) complied with certain requirements of 45 CFR Part 1610.
This regulation requires grantees to maintain objective integrity from any
organization that engages in activities prohibited by the LSC Act, LSC
appropriations acts, and LSC regulations. To do so, grantees must be legally
separate from such organizations, not transfer LSC funds to them, not subsidize
any restricted activities with LSC funds, and maintain physical and financial
separation from them. An exception applies for transfers of LSC funds solely for
private attorney involvement activities.

        Between January I , 2001 and September 30, 2002, the grantee did not
fully comply with the program integrity requirement of Part 1610. The grantee did
not maintain objective integrity and independence from an organization that
engaged in LSC restricted activities. The grantee, although not meeting the 1610
requirements, did not do restricted cases nor were LSC funds used to support
such cases.

       In addition, the OIG found that :
              no improper payments were made to over 300 vendors.
              grantee employees were generally aware of the LSC prohibitions
              and restrictions.
              for sampled cases, no prohibited or restricted cases were
              undertaken and the clients met eligibility requirements.
        p;:;
         ..
             the grantee complied with LSC regulations on client intake and
             timekeeping.

        The OIG reviewed a sample of cases that had been filed with the courts.
There was no indication that these cases involved restricted or prohibited
activities.


OBJECTIVE INTEGRITY AND INDEPENDENCE

       The grantee did not establish and maintain objective integrity and
independence as required by 45 CFR Section 1610.8. It participated in a
collaborative effort to operate the Michigan Poverty Law Program, an
organization that handles LSC restricted cases within one of its two divisions.
The grantee's activities were carried out in a separate division from the division
performing the LSC restricted work, but despite the separation between the
divisions, the separation between the grantee and the Michigan Poverty Law
Program was not adequate.
Description of the Michiqan Poverty Law Program

       The Michigan Poverty Law Program is a collaborative state support
program. The University of Michigan Law School (Law School) and the grantee
are partners in this collaboration. The stated purpose of the Michigan Poverty
Law Program is to provide case consultation support, oversee statewide training,
participate in law task forces, and coordinate advocacy on issues of statewide
impact. It carries out its activities through two separate divisions: the Support
division and the Clinic division.

       The grantee and the Law School have an agreement governing their
relationship and spelling out the responsibilities of each organization. This
agreement distinguishes between the Clinic division and Support division. The
Law School operates the Clinic division which focuses on systemic impact cases,
including appeals, class actions, or other law reform litigation. The Clinic does
some LSC restricted work. The grantee manages the Support division, which
operates subject to LSC restrictions and performs the local program support
work. LSC funds are not used to operate either division.

       The grantee submitted a letter to LSC in February 1997 informing LSC
about the Michigan Poverty Law Program and offering to discuss any concerns
that LSC had about the program. While the grantee never received a written
reply, grantee management indicated that it believed that LSC had approved the
structure.

       Requirements

      Section 1610.8 states that grantees must have objective integrity and
independence from organizations that engage in LSC restricted activities. The
grantee meets the requirements of this regulation if:

              1. The other organization is a legally separate entity.

              2. The grantee does not transfer LSC funds to the organization
                 and LSC funds do not subsidize restricted activities, and

              3. The grantee is physically and financially separate from the other
                  organization. Such factors as the existence of separate
                  personnel, accounting and timekeeping records, facilities, and
                  signs should be considered in determining whether the other
                  organization is physically and financially separate.

        Section 1610.8 requires the grantee to ensure that it is not identified with
restricted activities and that the other organization is not so closely identified with
the recipient that there might be confusion or misunderstanding about the
recipient's involvement with or endorsement of prohibited activities.


Compliance With Requirements

       The grantee met the second requirement. The grantee does not use LSC
funds to operate the Support division of the Michigan Poverty Law Program. We
found no indication that the grantee transferred LSC funds to any organization
engaged in restricted activities, nor did LSC funds subsidize restricted activities.
However, the first and third requirements were not met. The Michigan Poverty
Law Program is not a legally separate entity and the grantee does not maintain
physical or financial separation from the Michigan Poverty Law Program.

Lesal Entity

       The grantee and the Law School are legally separate entities. The result
of the collaborative effort between the two organizations, the Michigan Poverty
Law Program, is not a legally separate entity. It has not been incorporated, nor is
it otherwise a separate legal entity; therefore it is not legally separate from the
grantee. The Michigan Poverty Law Program's Clinic division does restricted
work, resulting in the grantee's violation of 1610.8.

Phvsical and Financial Separation

       The grantee is a part of the Michigan Poverty Law Program and therefore
is not physically or financially separate from an organization that does restricted
cases. Grantee financial records indicate that the grantee annually provides
about $335,000 of non-LSC funds, which is about 30 percent of the Michigan
Poverty Law Program's budget. The grantee provided personnel for the
Michigan Poverty Law Program and continued to maintain accounting records for
the Support division operations and timekeeping records for its Support division
personnel. Although the Clinic and Support divisions are located in separate
suites, they are housed together in one location and identified through signs,
websites, and telephone listings as the Michigan Poverty Law Program. The
Michigan Poverty Law Program maintains one work plan, co-counsel guidelines,
and priorities and case acceptance criteria.

       No LSC funds are used to operate the Michigan Poverty Law Program but
the regulation requires the grantee to maintain physical and financial separation
from any organization doing prohibited or restricted activities. Under the totality
of the circumstances, the grantee did not meet the requirement for financial and
physical separation from Michigan Poverty Law Program.

Conclusion
       The totality of the facts presented above show that the grantee did not
establish objective integrity and physical and financial separation between itself
and the Michigan Poverty Law Program. At least two options are available to
correct the problem. The grantee could sever ties with the Michigan Poverty Law
Program. Alternatively, the grantee and the Law School could agree to preclude
the Clinic division from accepting restricted cases. These cases could be
assigned to other clinic units outside of the Michigan Poverty Law Program
umbrella while ensuring that the grantee maintains program integrity from the
Law School. Other options may be available that would allow the grantee to
comply with program integrity requirements.

RECOMMENDATION

      To clearly separate itself from restricted activities performed at the
Michigan Poverty Law Program, we recommend that the grantee:

       Disassociate itself from the Michigan Poverty Law Program or work with
       the Law School to restructure the Michigan Poverty Law Program to
       preclude the performance of LSC restricted activity.


                                 BACKGROUND

       The Legal Services of South Central Michigan is a non-profit corporation
established to provide legal services to indigents who meet applicable eligibility
requirements. This grantee is headquartered in Ann Arbor, Michigan and
maintains six additional offices throughout the state. Staffing at the time of our
audit included 45 attorneys, 4 paralegals, and 24 other employees who provide
administrative support. Funding for 2002 included a basic field grant of $1.375
million, a migrant workers grant of $544,000, and technical grants totaling
$157,500.

      The grantee was established in January 2002, through a merger of Legal
Services of Southern Michigan and Legal Aid of Central Michigan.



                OBJECTIVES, SCOPE, AND METHODOLOGY


      The focus of the audit was compliance with requirements established in 45
CFR, Part 1610, relating to program integrity standards, including the transfer of
funds to other organizations (non-LSC). The on-site portion of the audit was
performed from October 28,2002, to November 8,2002.
       The audit covered the period from January 1, 2001, through
September 30, 2002. The OIG reviewed materials pertaining to the grant,
including Certifications of Program Integrity, audited financial statements, grant
proposals and recipient profiles. The OIG also discussed issues pertaining to the
grantee with LSC program and management officials. The OIG performed audit
field work in Ann Arbor, including the headquarters office as well as the Michigan
Poverty Law Program and Family Law Project offices. In addition, the OIG
performed field work in the Lansing Office and the Bangor Office (Farm workers
Program).

       During the on-site audit, the OIG interviewed and evaluated
documentation provided by the Executive Director as well as attorneys and
administrators. The OIG evaluated grantee employees' familiarity with the
guidelines set forth in Part 1610. The audit included an assessment of the
grantee's policies and procedures in meeting program integrity requirements,
including procedures applicable to the transfer of funds to other organizations.
The audit also included an evaluation of the client intake process. In addition,
the OIG evaluated the grantee's controls for oversight of the Private Attorney
Involvement Program.

       The OIG reviewed a sample of the grantee's case files for each of the
offices and programs to determine if financial, citizenship and other eligibility
requirements were met. The OIG also tested a sample of court cases filed by the
grantees' attorneys to determine if the attorneys provided representation in any
prohibited cases. In addition, these court cases were traced to Part 1644
Reports (Disclosure of Case Information) to evaluate compliance with reporting
requirements.
  SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT
              AND THE OIG'S RESPONSE


        The grantee expressed concerns about the OIG procedures that were
followed and the lack of reporting on affirmative findings in the draft report. The
grantee did not agree with the conclusion that it did not fully comply with the
program integrity requirement of Part 1610 due to its collaborative effort to
operate the Michigan Poverty Law Program. The grantee also requested that its
disclosure of its relationship with the Michigan Poverty Law Program to LSC
officials be included in the report. The grantee's comments are included in
Appendix I.

       The OIG considered the grantee's comments in finalizing the report and
made some revisions as indicated below. The OIG does not agree that the
finding is erroneous. A summary of the grantee's comments and our response
follows.

GRANTEE COMMENT - OIG PROCEDURES

       The grantee stated that the audit team reported that there were no
findings of regulatory non-compliance at the exit conference but the draft report
included a finding on the Michigan Poverty Law Program. According to the
grantee, this inconsistency in reporting denied the grantee the opportunity to
discuss the findings with the audit team.

        The grantee also stated that it received assurance through a status report
that the findings had not significantly changed.

       OIG RESPONSE

       The OIG disagrees with the grantee's comments. The OIG stated at the
exit conference that while it did not have material instances of non-compliance to
report at that time, it was s a b l e to express an overall conclusion on the audit
objective because more steps needed to be taken--particularly the need to
resolve the issue of whether the structure of the Michigan Poverty Law Program
complied with program integrity requirements. The grantee provided a
memorandum discussing its views as to why the Michigan Poverty Law Program
complies with the program integrity requirements.

       The unresolved issue with the Michigan Poverty Law Program was the
only issue being deliberated and our email response to the grantee's inquiry
about the status only stated that there were no  new  issues that had arisen. The
email response did not discuss findings. A grantee official was notified and
briefed on the draft report contents before it was issued (the Executive Director
was out of town). After the draft report was issued, the audit team leader and the
OIG Counsel discussed the report with the Executive Director.


GRANTEE COMMENT - AFFIRMATIVE FINDINGS

       The grantee requested that the affirmative findings from the audit be
included in the report.

       OIG RESPONSE

       The draft report was written in an exception reporting style with overall
statements of the positive conclusions (no restricted cases, no LSC funds used
to support restricted cases). Additional information has been added on page 1 of
the report to provide more specific information on the positive conclusions.


GRANTEE COMMENT - OBJECTIVE INTEGRITY AND
INDEPENDENCE

      The grantee disagreed with the OIG's conclusion in the draft re ort on
compliance with program integrity requirements. The OIG concluded t h a t 0

       "The grantee did not establish and maintain objective integrity and
independence as required by 45 CFR Section 1610.8. It participated in a
collaborative effort to operate the Michigan Poverty Law Program, an
organization that handles LSC restricted cases within one of its two divisions.
The grantee's activities were carried out in a separate division from the division
performing the LSC restricted work, but despite the separation between the
divisions, the separation between the grantee and the Michigan Poverty Law
Program was not adequate."

      The grantee indicated that the legal question that should be addressed by
the OIG is whether there is objective integrity and independence between the
grantee and the University of Michigan Law School (the collaborating
organization), not between the grantee and the Michigan Poverty Law Program.
The grantee stated that:

        "From a legal point of view, LSSM cannot exhibit 'objective independence'
from MPLP-because MPLP is a creature of contract-not an independent entity.
In other words, a 'collaboration' is not an 'organization.' In order to determine
whether a grantee's participation in a collaboration violates 45 CFR 1610, LSC is
required to determine whether the two collaborating 'organizations' that are
involved in the collaboration have 'objective and independence' from each other."
       OIG RESPONSE
        We reviewed the grantee's comments and the information collected on site
and confirmed our conclusion that the grantee did not comply with program
integrity requirements. Part 1610 requires a recipient to have objective integrity
and independence from any organization that engages in restricted activities.
The Michigan Poverty Law Program is an organization that engages in restricted
activities and should be evaluated against this requirement. The distinction as to
whether the Michigan Poverty Law Program is an organization or a collaboration
does not change the way it should be evaluated against this requirement.

        Dictionaries generally define an organization as "an administrative and
functional structure (as a business or a political party)," and a "group whose
members work together for a shared purpose in a continuing way." A
collaboration is defined as "to work jointly with others or together especially in an
intellectual endeavor" and "to work together or with someone else for a special
purpose."

       Excerpts from both the Executive Director's memorandum of
November 16,2002 and the agreement referenced by the Executive Director and
attached to his response to the draft report provide indications of the nature of
the Michigan Poverty Law Program.

       The memorandum: "MPLP was created..."; "MPLP program was
operational"; "MPLP has a single 'Advisory Board."' MPLP has divisions, issues a
brochure, and has a website.

        The agreement: "[MPLP] is created to establish a high quality program to
provide support services..."; MPLP is governed, is advised by a "coordination and
Planning Committee"; has divisions, an Advisory Board, employees, and offices,
it provides services, issues publications, and receives funding.

       Thus, the Michigan Poverty Law Program has "an administrative and
functional structure" and is comprised of "members working together for a shared
purpose in a continuing way" (see definitions above). It is an organization and
therefore LSC regulations require the grantee to have objective integrity and
independence from it. As our report demonstrates, the grantee does not meet
this requirement. The report states, "the grantee's activities were carried out in a
separate division from the division performing the LSC restricted work, but
despite the separation between the divisions, the separation between the grantee
and [MPLP] was not adequate." The report goes on to list the three criteria for
program integrity and describes how two of them were not met: The Michigan
Poverty Law Program is not a separate legal entity, nor are the grantee and the
Michigan Poverty Law Program physically and financially separate.
GRANTEE COMMENT - LSC'S REVIEW AND APPROVAL
        The grantee informed LSC about its relationship with the Michigan Poverty
Law Program in a letter dated February 7, 1997. Although there was no reply to
this letter, the grantee indicated that subsequent discussions with LSC officials
and LSC site visits are strong evidence that LSC reviewed and approved the
relationship.

       The grantee asked the OIG to review LSC files and discuss with LSC
program staff to confirm there was a full review of the structure of the Michigan
Poverty Law Program in 1997. The grantee also requested that, at a minimum,
the final report state that the grantee fully disclosed the issue to LSC.

       OIG RESPONSE
        Prior to issuing the draft report, the OIG met with LSC's current state
responsible official and the state responsible official as of early 1997 who was
referred to in the grantee's comments as an LSC staff person who reported on
the Michigan Poverty Law Program. Neither of these LSC officials was able to
provide information concerning a full review of the structure of the Michigan
Poverty Law Program. The state responsible official in 1997 stated that he
visited the grantee in 1998 but that his visit did not involve a rigorous assessment
of the nature of the relationship between the law school and the grantee in the
establishment and operations of the Michigan Poverty Law Program.

       The OIG has added statements on page 2 of the final report discussing
the grantee's disclosure of this issue to LSC.
LEGAL SERVICES OF      APPENDIX I -
SOUTH CENTRAL MICHIGAN
                                   - - -                                       --



 Washtenaw County Office: 420 N. Fourth Avenue, Ann Arbor, MI 48 104-1 104 -phone (734) 665-6 18 1 fax (734) 665-2974



May 28,2003


Leonard J. Koczur
Acting Inspector General
Legal Services Corporation
750 1" St., N.E., 1lthFloor
Washington, D.C., 20002-4250

Re:     Comments on draft report

Dear Mr. Koczur,

        Thank you for the opportunity to comment on the draft OIG report sent with your letter
of April 1 1,2003. The report reflects the OIG findings from a two week site visit to Legal
Services of South Central Michigan (LSSCM) between October 28 and November 8,2002. The
purpose of the visit was to assess LSSCM's compliance with 45 CFR 1610, the "program
integrity" regulation.

       In our opinion, the draft report does not fairly describe the visit or the on site findings of
the OIG team. In our opinion, the core finding of the report-i-e., that LSSCM "did not fully
comply with the program integrity requirement of Part 1610" due to its "collaborative effort to
operate the Michigan Poverty Law Program" [draft report, p. 11-is factually and legally
erroneous. The reasons for our disagreement with the draft report are explained in detail below.

        OIG Protocols. At the outset, we wish to express surprise at the Report and' its findings.

       Prior to the site visit, OIG staff provided us with a publication called "Audit Procedures".
This publication provides, inter alia, that:

                 When the on-site audit work is completed, an exit conference is held with the
                 grantee management. The auditors summarize the preliminary findings and
                 conclusions and the proposed recommendations for corrective action. The
                 grantee is encouraged to provide information on mitigating circumstances or
                 additional information putting the findings in context."

       Audit Procedures, at p. 5. The publication further provides that if, after returning to LSC
headquarters, "the conclusions and findings change from the exit conference, the grantee is
informed." Audit Procedures, at p. 5.



                       A member agency of the Jackson County,Monroe County and Soutiz Ceentraral Michigan United Wws


                                                                                                            ,   .

                                                         1 - 1
           We believe that the report process followed for this draft report violates the OIG's
   published procedures. First, the report is inconsistent with the findings reported to us by the
   team at the exit interview. At that interview we were told that there were no findings of
   regulatory non-compliance.

           Second, because these findings were not presented to us during the site visit or at any
   other time prior to our receipt of the draft report, we were denied the opportunity to discuss the
   proposed findings with the team or to provide additional information or context to the finding.

           During the visit, we were told that we coulQxpect a draft report within 30 to 45 days of
   the visit. This report was not received until ove1$'50\days after the visit. When the report was
   not forthcoming, we began a dialogue with the 0 f d e a r n leader about the status of the report.
   Not only were we not informed of the change in the team's findings, we were affirmatively
   assured, as late as April 3,2003, that there had been no significant change in those findings.'

           The final report should include the affirmative findings reported to LSSCM by the
   OIG team at the exit interview. The purpose of the OIG visit was to assess LSSCM's overall
   compliance with LSC program integrity rules. During the course of the visit, OIG staff reviewed
   hundreds of financial transactions; visited five LSSCM offices; interviewed approximately 25
   staff persons; met or spoke with a number of persons outside the program; reviewed hundreds of
   court files; and reviewed hundreds of pages of internal LSSCM documents. The visit, g d the
   exit interview, focused on overall compliance with Part 1610.

           In contrast, the draft report discusses a single finding-that LSSCM's relationship with
   the University of Michigan Law School through the Michigan Poverty Law Program (MPLP) is
   violative of Part 1610.

          At the exit conference with the team, the team summarized its activities and findings
   from the site visit as follows:

   1. OIG staff interviewed approximately 25 different LSSCM program staff and management
      personnel; OIG staff also reviewed the annual Board certifications required by Part 1610.
      The OIG finds that staff were aware of the regulation and that LSSCM has complied with the
      procedural requirements of Part 16 10.

   2. OIG staff reviewed in detail over 600 checks payable to over 300 different vendors totaling
      over $654,000 in transactions; OIG staff found no transactions that were violative of LSC
      rules or regulations.

   3. OIG staff reviewed all case filings for all LSSCM staff in three separate county court
      systems for the 18 month period of the audit and found: (a) that no LSSCM staff were
      involved in any LSC restricted litigation; and (b) that all filings were reported to LSC as
      required by 45 CFR 1644.
             -     -          -    --



' See e-mail from Richard Adkins to Bob Gillett dated April 3,2003.
                                                          -2-
     4. OIG reviewed numerous internal case files and had access to LSSCM's entire time record
        system. OIG staff found that LSSCM maintains a time record system in compliance with 45
        CFR 1635; OIG staff found no evidence that any LSSCM staff person was involved in LSC
        restricted work during the 18 month period audited.

     5. LSSCM is involved with many partner agencies in many collaborative efforts to provide
        services to the client community. OIG staff reviewed partnership agreements, workplans,
        leases, and financial transactions with the following organizations:

        A. Michigan Migrant Legal Assistance Project (1 997)
        B. University of Michigan Law School-Michigan Poverty Law Program (2000) .
        C. Western Michigan Legal Services (LSC Technology Initiative Grant, 2000)
        D. Domestic Violence Project (VAWA grant, 2000)
        E. AWARE, Inc.
        F. Calhoun County Circuit Court
        G. University of Michigan Law School (VAWA grant, 2000)
        H. Catherine Cobb Domestic Violence Program (VAWA grant, 2000)
        I. SAFE Place Shelter (VAWA grant, 2000)
        J. Family Counseling and Shelter Services (VAWA grant, 2000)
        K. Michigan League for Human Services (Michigan State Bar Foundation subgrant, 2000)
        L. University of Michigan Law School (LSC Technology Initiative Grant, 2001)
        M. National Legal Aid and Defender Association (LSC Technology Initiative Grant, 2001)
        N. Pro-ject for the Future of Equal Justice (LSC Technology Initiative grant, 2001)
        0. Center For Law and Social Policy (LSC Technology Initiative Grant, 2001)
        P. Legal Aid Society of Orange County (LSC Technology Initiative grant, 2001)
        Q. Pro Bono Net (LSC Technology Initiative grant, 2002)
        R. Tech Soup - Legal Services Technology Network (LSC Technology Initiative grant,
        2002)
        S. Fair Housing Center of Southeastern Michigan (lease and corporate documents, 1994)
        T. Community ~ c t i o hAgency of Southcentral Michigan (sublease agreement, 1997)
        U. Van Buren ARC (lease, 2002)

                With the exception of the OIG finding regarding item B above (the University of
        Michigan Law School-MPLP agreement), OIG staff found each of these agreements and
        relationships to be in compliance with Part 1610.'

         At the exit interview, LSSCM staff were told that OIG staff "had found no material instances of non-compliance
with LSC regulations." At the interview, OIG staff made six recommendations for consideration by LSSCM. These
recommendations were:

I.   That the U M L S funded support attorney begin to complete LSSCM timesheets;
2.   That LSSCM install a full Kemps system in the MPLP office;
3.   That LSSCM consider ways to more formally document the non-work activities of part time employees;
4.   That, in approving waivers for clients between 125% and 187.5% FPL, LSSCM include financial calculations in the
     Kemps notes that document that the client's available income, with permissible waivers, is under 125%FPL;
              We request that the final report include these affirmative findings as they were
       reported to LSSCM at the exit conference.

       The single substantive finding of the report is factually and legally incorrect. The draft
       report really makes a single finding-i.e., that "the grantee did not establish and maintain
       objective integrity.. ." because LSSCM "participated in a collaborative effort to operate the
       Michigan Poverty Law Program", draft report at p. 1. This finding is incorrect.

                At the outset, it is clear that "participation in a collaborative effort" in and of itself
       does not violate Part 1610. A violation of Part 1610 exists only if such partic'ipation
       compromises the "program integrity" of the LSC grantee such that the grantee is found to
       "engage in restricted activities" or to control or to be controlled by organizations that engage
       in restricted activity, 45 CFR 1610.1.

               The draft report is brief (four and one half pages); essentially devoid of legal citation
       or legal analysis; confusing; and internally inconsistent. The most fundamental and
       confusing flaw in the report is that it is not consistent in characterizing what organizational
       relationship it is analyzing under the program integrity regulation.

               A. LSSCM is obiectivelv independent from the Law School. In several places, the
       report appears to be analyzing LSSCM's program integrity in relationship to the University
       of Michigan Law School. This is the analysis required by the regulation. At page 1, the
       draft report correctly states: "The Michigan Poverty Law program is a collaborative state
       support program. The University of Michigan Law School and the grantee are partners in the
       collaboration." At page 3, the draft report correctly states that: "The grantee and the Law
       School are legally separate entities."

               The report also correctly finds that LSSCM did not "engage in restricted activities",
       see 45 CFR 1610.1. "The grantee ... did not do restricted cases nor were LSC funds used to
       support such cases," draft report at p. 1. Rather the draft report correctly finds that any
       restricted work was done by the UMLS Clinic, which is managed and operated by the
       UMLS, draft report at p.2.

               The report correctly notes that MPLP consists of two separate offices with two
       separate staffs- a "Clinic Division" entirely funded and managed by the UMLS and which
       does some LSC restricted work; and a "Support Division" which is managed by LSSCM and
       "which operates subject to the LSC restrictions and performs local program support work",
       draft report at pages 1 and 2. The draft report describes these two offices as "separate
       divisions" of MPLP, draft report at page 1.

5.  That, in Kennedy amendment cases, the fact that the client is a Kennedy amendment client be clearly noted in the
    Kemps notes.                                                                                      . .
6 . That LSSCM should consider greater separation of duties regarding access to blank checks.

We were puzzled that none of these recommendations were incorporated into the draft report.
               Thus, the legal question faced by the OIG is whether LSSCM has "maintain[ed]
        objective integrity and independence" from UMLS, the collaborating organization in
        the MPLP contract, 45 CFR 1610.1.

                The "program integrity" test is set forth at 45 CFR 1610.8. This regulation creates a
        three part test of "objective integrity and independence". Ths first test is whether "the other
        organization is a legally separate entity", 1610.8(a)(l). The draft report correctly finds that
        LSSCM are UMLS are legally separate entities, draft report at page 3.

              The second test is that "the other organization receives no transfer of LSC funds", 45
        CFR 1610.8(a)(2). The draft report properly finds (at page 2) that "the grantee does not use
        any LSC funds to operate the Support division of [MPLP]".

                The third test is whether "the grantee is physically and financially separate from the
        other organization", 45 CFR 1610.8(a)(3). This test is determined "on a case by case basis
        and will be based on the totality of the facts". The draft report does not undertake the
        analysis required by the regulation.

                However, when the OIG team was on site at LSSCM, the program provided the team
        with a detailed analysis of MPLP in light of the specific criteria of 45 CFR 1610.8(a)(3).
        This analysis is not mentioned in the draft report. It is attached and incorporated as Ex. A.

               If the criteria of the regulation are applied to a comparison between LSSCM and
        UMLS, it is clear that there is "objective integrity and independence" as defined by 45 CFR
        1610 between the two organizations. See Ex. A.

                B. There is no reauirement that LSSCM establish "objective integrity" from the
        Michigan Povertv Law Program. In other places, the draft report states that it is assessing
        LSSCM's organizational independence from MPLP. In these sections of the draft report, the
        OIG begins with the erroneous assumption that MPLP is "an organization" (draft report, at p.
        1). The draft report describes MPLP as some sort of "legal entity" (draft report, at p.3). The
        draft report concludes that "the separation between the grantee and the Michigan Poverty
        Law Program was not adequate" (draft report at page 1); that "the grantee does not maintain
        physical or financial separation fiom the Michigan Poverty Law Program" (draft report at
        page 2); and that LSSCM "is part of the Michigan Poverty Law Program and therefore not
        physically or financially separate" fiom this "organization that does restricted work" (draft
        report, at p.3).'

               These statements are inconsistent with other sections of the report. They are also
        inconsistent with Michigan law and 45 CFR 1610.
         "The draft report is inconsistent in its characterization of MPLP. For example, at page 2, the draft report states:
"The Michigan Poverty Law Program is not a separate legal entity." And at page 3, the draft report state that: "The grantee
and the Law School are separate legal entities. The result of the collaborative effort between the two organizations, the
Michigan Poverty Law Program, is not a legally separate entity. It has not been incorporated, nor is it otherwise a separate
entity."
         Under Michigan law, four types of "legal entity" are recognized-persons,
corporations, partnerships, and limited liability companies (LLC's). It is clear that MPLP is
not a "legal entity" as defined by Michigan law. It is not a person. MPLP is not a -
corporation or an LLC because these two corporate forms exist solely by statute. See MCLA
450.1 101, et seq., and West, Michigan Civil Jurisprudence, Volume 6 for a discussion of
"Corporations". See MCLA 450.4101 et seq., West, Michigan Civil Jurisprudence,
Volume 16 for a discussion of "Limited Liability Companies". MPLP is not a partnership,
because, under Michigan law, partnerships are, by definition, for profit entities. See MCLA
449.1 et seq.; and West, Michigan Civil Jurisprudence, Volume 19 for a discussion of
"Partnerships".

        Under Michigan law, noncorporeal entities such as MPLP are entirely creatures of
contract. They have no independent legal existence beyond the legal existence of the parties
to the contract. As in any contract, the MPLP Agreement must be interpreted based on its
plain language and the intent of the parties. See, e.g., West, Michigan Civil Jurisprudence,
Volume 5A, "Contracts", at Section #156.

        From a corporate legal point of view, LSSCM cannot exhibit "objective
independence" from MPLP- because MPLP is a creature of contract- not an independent
entity. In other words, a "collaboration" is not an "organization". In order to determine
whether a grantee's participation in a collaboration violates 45 CFR 1610, LSC is required to
determine whether the two collaborating "organizations" that are involved in the
collaboration have "objective integrity and independence" from each other.

        The actual LSSCM - UMLS Agreement governing the MPLP collaboration is
attached as Ex. B. This Agreement was provided to the OIG team. The Agreement clearly
provides that UMLS and LSSCM are independent entities; that any restricted work will be
undertaken by the UMLS Poverty Law Clinic; that the Clinic is a program of and solely
controlled by UMLS; and that LSSCM will not control or support any LSC restricted work.

        Specifically, the Agreement provides that:
       - "the two organizations [LSSCM and UMLS] will remain separate and independent
organizations", Agreement at 2(B);
       - general policy direction for MPLP activities will be provided by two Advisory
Boards that are independent from both entities, Agreement at 2(D).
       - the MPLP Administrative Committee ... "will not direct or supervise the
substantive work of any of the MPLP divisions", Agreement at 2(C);
       - the parties acknowledge that LSSCM "receives LSC funding and is therefore
subject to the LSC restrictions. The organizations further understand that many local legal
services programs in Michigan receive LSC funding. Neither [LSSCM] as an organization
nor any employee of [LSSCM] or any other LSC-funded program will perform LSC-
prohibited work, or supervise or control LSC-prohibited work, or otherwise fund or support
LSC-prohibited work," Agreement at 2(E);
        - "theorganizations understand that the [Support] office will be supported in part by
LSC funds and that all work of the [Support] office will be performed in accordance with the
LSC restrictions," Agreement at 3(C);
      - "UMLS will be solely responsible for LSC prohibited or restricted work",
Agreement, at 3(F);
      - "each organization will hire and set the terms of employment for its own
employees", Agreement at 3(A).

        The net effect of the LSSCM - UMLS Agreement is to create a collaboration that is
premised on the ongoing independence of two organizations-LSSCM as an LSC-funded
entity and UMLS as an unrestricted entity. And since MPLP is a creation of contract (not an
independent legal entity) it is the language of the contract that defines the parties'
relationship.

        During the site visit, one of the questions investigated by OIG staff was whether
MPLP was being operated in accord with the written Agreement- or whether some of the
practices of the partners were inconsistent with the Agreement. While on site, OIG staff
stated that MPLP was being operated in full compliance with the Agreement. Therefore, it
follows that the violation of 45 CFR 1610 found by the OIG team must be due to some
language in the Agreement that, as a matter of law, compromises LSSCM's program
integrity. However, the draft report only mentions the Agreement briefly and never
identifies any specific provision of the Agreement as creating a violation of 45 CFR 1610.
If the OIG has concluded that the LSSCM - UMLS Agreement violates 45 CFR 1610.8(a)(l)
or (a)(3), the OIG must identify the provisions of the Agreement that conflict with the
regulation.

       In our opinion, the draft report asks the wrong question-i.e., whether LSSCM
is independent from the MPLP Support o f f i c e a n d therefore comes to the wrong legal
conclusion. The proper test is whether LSSCM and the MPLP Support off~ce(which
comprise the legal entity called LSSCM) are independent from the UMLS and its
Clinical Law Programs (which collectively comprise the legal entity called the
University of Michigan Law School). Under this test, there is clear independence
                                                                              . .
between the two organizations. See Ex. A.

        C. The findings of the draft report regarding ~ h ~ s i cand
                                                                  a l financial se~arationare
factuallv and legallv erroneous. The draft report makes two findings of non-compliance-
that "the Michigan Poverty Law Program is not a legally separate entity" and that "the
grantee does not maintain physical or financial separation from the Michigan Poverty Law
Program", drafi report at p. 2.

        The "legally separate entity" issues are discussed above. However, the finding that
LSSCM "is not physically or financially separate from an organization that does restricted
cases" (drafi report at p.3) is also erroneous.
                This finding may be due to the same conceptual error discussed above-i.e., that
        MPLP is "an organization" (as opposed to a joint project of two independent organizations).
        While it is true that the MPLP Support division is not physically separate fiom LSSCM
        (draft report at p. 3), it is also true that the Support division and the Clinic division of MPLP
        are physically separate from each other-as the draft report recognizes, they are located in
        separate offices with separate leases, draft report at p. 3.

                 It is also clear that the two divisions are fiscally separate. While the two divisions
        seek one common grant each year (a Michigan State Bar Foundation state support grant), this
        grant is but one of about 10 funding sources that support one of the two divisions of MPLP.
        All the other funding sources are applied for and paid directly to either LSSCM or UMLS.
        And even the MSBF support grant is not paid "to MPLP"-rather, a portion of the grant is
        paid directly to UMLS and a portion of the grant is paid directly to LSSCM. Except for the
        combined statements included in the grant documents required by one funder, all UMLS
        funds are accounted for by UMLS and all LSSCM funds are accounted for by LSSCM.
        These are entirely separate fiscal systems housed in different locations. There is no shared
        fiscal staff.4

                Another problem with the draft report's handling of the "physically and financially
        separate" issue is that the report fails to follow the process set forth in the regulation to
        analyze these issues. The regulation lists four different sets of factors that should be
        considered; it provides that the program integrity determination will be made "on a case by
        case basis and will be based on the totality of the facts. The presence or absence of any one
        or more factors will not be determinative", 45 CFR 1610.8(a)(3). The draft report does not
        analyze the four areas listed in the regulation. The draft report's conclusion follows a very
        cursory discussion of two or three of the four factors, see draft report at page 3. For a
        detailed analysis of the regulation's application to the MPLP collaboration, see Ex. A.

                For these reasons, we respectfully submit that the draft report's findings that LSSCM
        is neither legally, physically, nor fiscally separate fiom the UMLS Clinical Law Program are
        erroneous.

           D. The draft reuort fails to discuss LSC's review and auuarent ap~rovalof the legality of
       the LSSCM - UMLS Agreement. When LSSCM was in the process of forming MPLP

         4The draft report states that LSSCM maintains accounting records and timekeeping records for MPLP Support
Division personnel. While this is true, it is also legally permissible, since the MPLP Support Division is an office of
LSSCM. As noted in the MPLP Agreement, "all work of the [Support Division] will be performed in accordance with the
LSC restrictions". Agreement at Section 3(c). There is no violation of Part 16 10 when an LSC-funded program utilizes
non-LSC funds to operate an office- so long as that off~cedoesn't perform LSC-restricted work. What is not stated in the
draft report (but which is implied) is that there are no shared accounting or personnel records between LSSCM (Support)
and UMLS (Clinic). Thus, the draft report implicitly finds that LSSCM (the Support Division) and UMLS (the CIinic
Division) maintain entirely separate personnel and fiscal systems.
(December, 1996), LSSCM staff were contacted by LSC Program staff who indicated that
LSC had received an inquiry or a complaint about the possible illegality of the proposed
MPLP structure. In response to this inquiry, after discussion with LSC program staff,
LSSCM wrote to LSC "so that the Corporation is informed about [MPLP] and so that we can
discuss any concerns that the Corporation might have about the program". See Exhibit C,
letter from Robert Gillett to Karen Sarjeant dated February 7, 1997. This letter included the
following attachments: the MPLP Agreement; a letter sent to all legal services staff in
Michigan announcing and describing the MPLP program; and the Michigan State Bar
Foundation "Support Services Outline" describing the funder's expectations for the proposed
state support system.

    After sending these materials to LSC, LSSCM staff discussed them with LSC staff.
Based on that discussion, LSSCM staff understood that LSC had no issues with the legal
structure of the MPLP program.

    Later in February of 1997, Martha Bergmark, the then-President of LSC, visited the
program and the Law School. Ms. Bergmark spoke on a panel at the Law School with
Suellyn Scarnecchia (the Dean of Clinical Affairs at UMLS and the Law School's designated
administrative contact for MPLP) and Robert Gillett (the Director of LSSCM and LSSCM's
designated administrative contact for MPLP). The panel included a presentation on the
structure and the substantive work of MPLP.

   Early in 1998, another LSC staff person, Bristow Hardin, visited LSSCM. This meeting
was held at MPLP and included a report on the MPLP program. Mr. Hardin toured both
MPLP offices and met with both UMLS and LSSCM staff.

    LSSCM's February, 1997 letter to LSC was written shortly after the initial
implementation of the PL 104-134 restrictions and while two lawsuits challenging the
restrictions were working their ways through the courts. See Legal Aid Society of Hawaii,
et al. v. Legal Services Corporation and Velazquez, et al. v. Legal Sewices Corporation.
(Both the L.A.S.H. and Velazquez cases were filed in January, 1997.) It is our
understanding that, because of the high degree of public visibility of 1610 issues at this time,
LSC staff took any complaint regarding 1610 compliance very seriously. We understand that
LSC's policy was to fully investigate any such complaint. Further, we understand that LSC
staff directly raised any 1610 compliance issues with the program. We also understand that
since LSC was awaiting guidance from the courts, it was not issuing opinion letters on 1610
issues at this time.

   It is true that LSSCM never received a written reply to Mr. Gillett's February 7, 1997
letter. However, we believe that LSC's comments and actions and practices, taken together,
are strong evidence that LSC fully reviewed and approved the MPLP structure in 1997.
   We discussed this history with the OIG team during the visit. Neither the extensive
communications with LSC nor LSC's apparent approval of the MPLP structure are
mentioned in the draft report.

    We urge the OIG to review LSC files and to discuss these issues with LSC program staff
to confirm that there was a full LSC review of the MPLP structure in 1997. At a minimum,
we request that the final report include a finding that LSSCM hlly disclosed the MPLP
relationship to LSC and asked for LSC's guidance regarding the relationship. These
communications are further evidence that LSSCM has made reasonable efforts to understand
and comply with the requirements of Part 1610. We would also request that this finding be
stated explicitly in any final report.

     Conclusion. We were very disappointed in the draft report. We were disappointed by
its conclusion, which differed dramatically from the report we were given at the exit
conference; by its lack of legal analysis; and by its apparent confusion about what
relationship it was analyzing.

    For the reasons outlined in this letter and its attachments, we would request that you
modify the draft report to address these deficiencies. Specifically, we urge you to: (1)
withdraw the draft report; (2) provide a second draft report for us that fairly and completely
addresses the factual and legal issues raised in this letter; (3) provide us with an opportunity
to review and comment on any revised draft report before a final report is issued.

   Please contact me if you have any questions or if you need any additional information.

                                          Respectfully yours,
                                                                    7

                                          Robert F. Gillett
                                          Director
To:             Richard Adkins

From:          Bob Gillett

re:            MPLP and 1610 compliance

Date:          November 6,2002


      You asked me to write a memo addressing the independence of the University of
Michigan Clinical Law Program ("the Clinic") from the LSSCM's Michigan Poverty Law                ,

Program's ("MPLP") Support office.

        As I understand it, you are comfortable that the University of Michigan ("UMLS") and
Legal Services of South Central Michigan ("LSSCM) are legally separate and independent
entities. You are also comfortable that no restricted work is being performed by the MPLP
Support office and that LSSCM provides no subsidy to the UMLS Clinic operations. While there
is no question as to the actual independence of the Support office and the Clinic, you have some
concerns about the appearance that the two organizations are a single organization.

        This memo is meant to address that concern.

         Origins. As you know, since 1995, all LSC-funded programs have been under a directive
from the Legal Services Corporation (LSC) to assure the creation of "a comprehensive and
integrated statewide network" of legal services delivery in their states. Grantees have been
directed to assure that this network provides "a full range of services" (LSC permitted and LSC
restricted) to all eligible clients. LSC describes the process to develop this network as the "state
planning process".

       MPLP was created through the Michigan state planning process. After e x t e ~ i v e
planning discussions, the Michigan State Bar Foundation ('MSBF") published its ''~Gctionsand
Required Funding Priorities For State Support Services". This document made it clear that the
"absolute priority" of the Foundation would be "program support for legal services field
programs".

       In response to the MSBF request for proposals to implement its plan for State Support
Services, UMLS and LSSCM submitted their joint MPLP proposal in the fall of 1996. Under the
proposal, the two organizations would form a partnership to jointly fund the Support office
(which would operate consistent with the LSC restrictions); in addition, through its independent
Clinic office, UMLS would continue to provide services without regard to the LSC restrictions.'

        In developing their proposal, UMLS and LSSCM were mindful of the LSC program
integrity requirements set forth in 45 CFR 1610 and designed their program with the intent of     ,   .   . .-
fully complying with the regulation.

        Before the MPLP program was operational, we discussed its structure with LSC staff.
Shortly after the program opened its doors, LSSCM sent a letter (including several relevant
program documents) to LSC and asked the Corporation to review the program.' LSC responded,
approving the basic design of MPLP but leaving the door open to further review by the new LSC
state planning representative. That representative, Bristow Hardin, visited MPLP in March of
1998; he expressed appreciation for the MPLP program as a model outcome of an effective state
planning process. He raised no program integrity or other regulatory concerns about the
program.

       In sum, MPLP was designed to comply with 45 CFR 16103,and its design and operations
were reviewed and approved by LSC program staff at the time the program was created.

        Current Status. As you requested, I will review the 45 CFR 1610 criteria in more detail
and relate them to the LSSCM - UMLS activities in jointly sponsoring MPLP.

        Legally separate entities- 1610.8(a)(l). As you have acknowledged, LSSCM and the
University of Michigan are clearly separate entities. LSSCM is a Michigan non-profit -                    . ..
corporation founded in 1965 and governed by a thirty person Board, the make up of which is
consistent with 45 CFR 1607. The University of Michigan is a Michigan governmental
corporation founded in 1817; the University is governed by eight Regents elected by the voters of
the state of Michigan. There has never been a single position of Board overlap between the
University Regents and the LSSCM Board. There has never been a joint Board meeting.4


        'The University of Michigan Clinical Law Program has existed, as a non-LSC-funded
legal services provider, since 1972.

       'This letter was sent to Karen Sarjeant early in 1997. Around this time, Ms. Sarjeant
moved from being the LSC "state planning" representative to Michigan to being LSC's Vice
President for Programs.

       'Since MPLP was created in 1996, it was created in compliance with the 1996 version of
45 CFR 1610. The regulation was revised in 1997 to reflect the decision in the Legal Aid
Society of Hawaii case.
       4MPLPhas a single "Advisory Board" that provides program advice to both the Support        '

and Clinic offices. First, this Board is purely advisory- it is not a governance Board. Second,
this Board is independent from both sides of MPLP- UMLS and LSSCM. Its members are
        Both organizations have wholly separate administrative personnel. On the University
side, there is a University President (Mary Sue Coleman); a Law School Dean (Jeffrey S.
Lehrnan); and an associate Dean of Clinical Affairs (Suellyn Scarnecchia). On the LSSCM side,
there is an Executive Director (Robert Gillett) and two Deputy Directors (Ann Routt and Carol
Munday).

       The overall University Budget is just under $4 billion per year. The LSSCM budget was
about $5 million in 2002.

        No LSC fund transfers- 1610.8(a)(2). No LSC fbnds have been transferred fiom
LSSCM to UMLS. The non-LSC funds that have been transferred from LSSCM to UMLS are:
(1) VAWA funds subject to a joint application and a memorandum of understanding that
provides that the funds will be used for the grant activities noted in that grant request. (None of
these funds may be used for LSC-restricted activities.) (2) State Filing Fees funds used to
reimburse UMLS for LSSCM expenses advanced by UMLS for LSC-permissible work.

        In turn, UMLS transfers resources (in cash and in kind) to LSSCM. These resources are
used by LSSCM for the purposes intended and consistent with LSC restrictions. We believe that
the transfer of funds from an unrestricted entity to an LSC-funded entity does not implicate 45
CFR 1610.

       Physical and financial separation- 1610.8(a)(3).

        (i) Shared personnel. There are no personnel who are part time UMLS personnel and
part time LSSCM personnel. There are no shared personnel between the Clinic (which is
operated wholly by UMLS) and the Support office (which is managed by LSSCM).

       UMLS provides funding to the Support ofice. That funding supports staff who spend
100% of their time on LSC-permissible support activities. These staff members are essentially
donated to LSSCM by UMLS and, like any donation from a private law firm to an LSC-funded
program, the donation does not make the LSC restrictions applicable to the donor firm or cause
the LSC-hnded program to violate 1610.

       (ii) Separate accounting and timekeeping records. UMLS and LSSCM each have their
own accounting systems that are 100% independent from each other. Neither party charges
administrative expenses against this grant.

       Each year, LSSCM and the Law School Clinic sit down to develop a "joint budget" for
MPLP. This budget is used only for submission of the annual funding application to the MSBF
This budget pulls discrete pieces out of the Law School Clinic budget and the LSSCM budget-


"MPLP consumersn- project directors, staff attorneys, private bar leaders, and client organization
leaders fiom across the state- who provide feedback and advice on improving MPLP's services.
but is not a full budget for either entity

       Through the application process, UMLS and LSSCM ask the MSBF to send portions of
the support grant to each entity, so there is no commingling of funds between the entities.

       The Clinic employees are all paid through the UMLS timekeeping and payroll systems.
The LSSCM Support employees are paid through the LSSCM timekeeping and payroll system.
The UMLS employees assigned to the Support office are paid through the UMLS timekeeping
and payroll systems.'

        (iii) Separate facilities. The University of Michigan Clinical Law Program operates five
separate clinics from a number of different locations. These clinics include the Child Advocacy
Law Clinic, the Legal Assistance to Urban Communities Clinic, the Criminal Appellate
Advocacy Clinic, the Environmental Law Clinic, and the General Clinic. It is this final Clinic
that accepts cases referred from legal services funded programs through MPLP. Overall, these
clinics employ about 16 clinicians, fellows, and staff attorneys.

       The main clinical offices are at the Law School, although several of the clinics have
separate offices in the Law School or at satellite offices in other locations. The Law School's
determination of when a clinic needs an office outside the school is based on the educational
goals of that particular clinic.

         The MPLP Support office is located at 61 1 Church St. ("Church Street"), a privately
owned office building about two blocks from the Law School. The Church Street building is
rented to a mix of University and commercial tenants. The 4thFloor of the building is leased to
the University. Half of the floor is used as a University fund raising office. The other half of the
floor is leased to the University for the use of the Law School. This Law School space is split
into five suites with a separate lease for each suite.

        One of these suites houses the MPLP Support office. This space is paid for by UMLS
(and treated in the LSSCM audit as donated ~ p a c e ) .One
                                                         ~ of the other suites houses two lawyers
from the University of Michigan Clinical Law Program. These lawyers are the MPLP liaisons.
In addition to the Clinic office space at Church St., the clinic lawyers are also provided office


       'During the site visit, it was suggested that LSSCM request that the UMLS funded
Support attorney complete LSSCM timesheets- not for payroll purposes, but for additional
documentation that this employee is not engaging in any LSC-restricted work while working in
the Support office.
       6
        Another suite houses LSSCM's Family Law Project- another joint project with the Law
School which is staffed by LSSCM lawyers who supervise volunteer law students in the
representation of survivors of domestic assault. This space is also donated to LSSCM by the
UMLS.
space at the Law School.'

        (iv) Signs and form of identification. The overall signage for LSSCM i d the
University of Michigan makes it clear that these are separate organizations with separate
missions and facilities. The signage on the separate suites at Church Street reflect the six
separate organizations that use the 4'hfloor space. The Church Street building is the only
building where both LSSCM and the UMLS have offices. The University of Michigan owns or
leases over 100 buildings in the state. LSSCM has six other offices.

         The MPLP brochure presents both sides of the program in a single document but it clearly
distinguishes between the two. The brochure lists separate addresses for the Support Office and
the Clinical Program, and in its text, clearly states that the Support office "is subject to the LSC
restrictions7'and that the Clinic "can accept referrals of restricted and unrestricted cases and
projects".

       The MPLP website <www.molp.org> offers a single entry point to both sides of MPLP'S
services. However, this site also clearly states the separate services that are provided by the
Support Office and the Clinic, see <vlw.m~lp.orglrn~I~info/mplpdescription.shtm>.

        LSSCM and the Support office have been deeply involved in legal services technology
planning since 1997. Support office technology stdf have worked closely with LSC program
staff on technology issues. LSSCM, through the Support office, is currently a grktee in five
different LSC Technology Initiative (TIG) grants. LSC program staff are familiar with the MPLP
web site and have not raised any regulatory concerns. In fact, we understand that the MPLP site
has been selected as the model for the "advocates site" for the national probono.net project
funded by LSC.

        Finally, while the University of Michigan Clinical Law Program has several offices and
phone numbers, the primary phone number for two (of 16) clinicians is through the Church Street
phone system. While these clinicians still have use of offices and phones at the Law School,
over time it has become clear that, to effectively coordinate work between the Support office and
the Clinic, to be fully available to the LSC field programs, and to supervise the clinical students
assigned to the Church Street space, it is necessary to have the MPLP number as the primary
phone number for these attorneys.                                                                      . ..

        Com~arisonwith the Lane Countv report. I am aware that, in at least other audit report,
the OIG has found that a grantee "did not maintain objective integrity and independence from a
legal organization that engaged in prohibited activities7', OIG Report No. AU 02-01 ("Lane
County").



        'These two attorneys are two of six attorneys assigned to the UMLS General Clinic. The
other four attorneys assigned to the Clinic are at the Law School on a full time basis.
        In that case, it appears the LSC grantee had a relationship with the restricted organization
(the Advocacy Center) since the Center was created in 1995. The organizations have
"intertwined financial arrangements", including the direct transfer of over $100,000 per year
from the grantee to the Center. The two organizations are wholly co-located, with staff sharing
spaces on several floors in a single building. It appears that there was not adequate signage
reflecting the two organizations' use of the building. There is substantial shared staff, including
intake staff and administrative staff. There is a single administrative staff for the two
organizations. The organizations share accounting and timekeeping systems, a web page, phone
numbers, and fax numbers.

       Based on "all the above factors", the OIG concluded that "the grantee and the Center
were so closely aligned that they appeared to be one organization".

         There are two points I wish to make based on this report. First, none of the factors that
were found compelling in the Lane County report- a shared history; a single shared site; shared
staff; fillancia1 subsidization; shared fiscal and administrative systems; etc.- exist here.'

        Second, in the Lane County report, the OIG did not find that the grantee's relationship
with the Advocacy Center was bv its nature violative of the regulation. Instead, the OIG made a
series of recommendations that would assist the grantee in maintaining its relationship with the
Advocacy Center while documenting compliance with 45 CFR 1610. Almost all of these
recommendations9have been built into the structure of MPLP since its creation.

       Conclusion. All LSC grantees are under a somewhat contradictory message from LSC
program staff- to carefully observe all regulatory restrictions while creating a seamless legal      ,


services delivery system that services all needs of all clients. MPLP was designed to meet both
these goals.

       MPLP is exactly what it appears to be, i.e. a partnership between two strong, independent
organizations- one LSC-funded and subject to the LSC restrictions and the other non-LSC-
funded and independent of the LSC restrictions- who share a commitment to the provision of
high quality legal services to low income persons.




       %deed, the level of connection between the University of Michigan Law School Clinical
Law Program and LSSCM is much less than the connections found unobjectionable in OIG
Report AU-02-03 (Central Virginia Legal Aid Society); and arguably less than the part time staff
arrangements found unobjectionable in OIG Report AU-01-04 (Pine Tree Legal Assistance).
          9
          See, for example, Recommendations # 1,4,7, 10, 11, 12, and 13 in the Lane County
Report.
               MICHIGAN POVERTY LAW PROGRAM
                             AGREEMENT

1.   Purpose
     The Michigan Poverty Law Program ("MPLP")is created to establish
a high quality program to provide support services (as described in the
Michigan State Bar Foundation ("MSBF")"Support Functionsn outline dated
9/24/96) for programs providing free civil legal assistance to low income
persons within Michigan. In establishing this program, the MPLP intends
to create a partnership among the current legal services provider
community, the private bar, and the University of Michigan Law..School..
The MPLP seeks to increase the involvement of the private bar in all
aspects of legal services delivery and, through the participation of the
University of Michigan Law School, involve the state's educational
institutions and their students in the provision of legal services to
Michigan's poorest citizens.

2.   Sponsorship and Governance
     A. The Michigan Poverty Law Program will be a joint program of the
University of Michigan Law School ("UMLS1')and Legal Services of
Southeastern Michigan ( "LSSEM") .   UMLS understands that LSSEM will
subgrant a portion of the funding for the program to the Michigan League
for Human Services ("MLHSU) to assist the program in providing
legislative support services to legal services providers.
     B. The two organizations will remain separate and independent
organizations. The organizations will jointly participate in program
planning for the MPLP.
     C. In order to coordinate the efforts of the organizations, the
organizations will establish a Coordination and Planning Committee to
advise the MPLP. This Board will consist of representatives of UMLS,
MLHS, and LSSEM.    The Committee will not direct or supervise the
substantive legal work of any of the MPLP divisions.
     D. The MPLP will accept policy direction on substantive priorities
and training needs from the MPLP Advisory Board. The MPLP will accept
policy direction on technology issues from the Legal Services Computer
                  ) .
Committee ( ltLSCCU
      E. The organizations understand that LSSEM receives Legal Services
Corporation ("LSC") funding and is therefore subject 'to the LSC
restrictions. The organizations further understand that many local legal
services programs in Michigan receive LSC funding. Neither LSSEM as an
organization nor any employee of LSSEM or any other LSC-funded program
will perform LSC-prohibited work, or supervise or control LSC-prohibited
work, or otherwise fund or support LSC-prohibited work.
3.   Delivery
     A. Each organization will hire and set the terms of employment
                                                           -  -     for
its own employees.
      B.   At least one employee will be a clinical assistant p;ofessor
(llCAPu) at the UMLS. Any CAP employees will be employees of UMLS. CAPs
will be responsible for supervising clinical law students and training
volunteer students assigned to the MPLP. The work of the CAPs will be
integrated into the overall workplan of the MPLP. All parties agree that
the involvement of law students in the MPLP is a goal of the program.
LSSEM agrees to make clinical or internship placements available to UMLS
students.
      C. The MPLP East employees will be housed at a single site jointly
selected by LSSEM and UMLS. All MPLP employees will comply with the
terms of the lease and the rules and regulations of the building. The
Managing Attorney of the MPLP East Office will be an employee of LSSEM.
The remaining MPLP East employees may be employees of LSSEM or UMLS. The
parties1 agreements about personnel policies are attached as Ex. A. The
organizations will jointly plan the staffing of the MPLP East office.
All MPLP East employees will be hired by a joint LSSEM/UMLS hiring
committee. The organizations understand that the MPLP East office will
be supported in part by LSC funds and that all work of the MPLP East
office will be performed in accordance with the LSC restrictions.
     .D. The organizations agree to consult with each other regarding
hiring for all MPLP positions.
     F. UMLS will be solely responsible for LSC prohibited or restricte'd
litigation.   No UMLS employee will engage in any direct lobbying
activities prohibited by University of Michigan policies.
     G. MPLP East (also supported by the UMLS Clinics) will be primarily
responsible for the remaining support functions set forth in the MSBF
"Support Functionsn outline dated 9/24/96. LSSEM will, consistent with
the regulatory restrictions imposed by LSC, provide tracking and
information services on legislative issues. In addition,' LSSEM will
enter into a contract with the MLHS for additional services in the
legislative area.
     H. There will be space available in both the MPLP offices for the
CAP position(s) and for student workspace.        UMLS agrees to make
sufficient law school space available to the MPLP to permit full student
involvement in the program.
      I. The parties recognize that the primary services of the program
are "support services1I as defined in the MSBF "Support Functions"
outline. MPLP staff may be involved in litigation; however, we expect
that most of this litigation will be done in conjunction with local MSBF-
funded programs or with pro bono attorneys identified through the MI-LAPP
program.
     The MPLP will accept policy direction (as to litigation and .non.-
litigation advocacy issues) from the advisory boards referred to in
section l(d), above.   The parties further agree that any potential
liability, with limits of no less than $1,000,000 per occurrence and
$1,000,000aggregate and professional liability insurance with limits not
less than $1,000,000per occurrence and $1,000,000 aggregate.

5.   Accountability and Reporting.

     A. UMLS and LSSEM agree to cooperate in the provision of reports
to the MSBF, to MSBF-funded programs, to the Advisory Boards described
in Section I of this document, and to other funders.
     B. UMLS and LSSEM agree to meet on the request of any party or on
the request of the MSBF to discuss any conflicts or concerns arising
regarding the MPLP.

6.   Additional Considerations and Agreements.

     A. LSSEM agrees that the financial and programmatic support from
the UMLS has been critical to the creation of the MPLP.        The joint
sponsorship of the MPLP by UMLS will be acknowledged on all MPLP
publications. LSSEM further agrees to fully acknowledge UMLS sponsorship
and support of this program as requested by UMLS.
      B. While the parties agree to the specific statements in this
agreement, they also acknowledge that their basic agreement is to develop
the best state support program possible for programs providing free civil
legal services to the poor. The parties agree to discuss changes and
modifications in this agreement with this basic goal in mind.         The
parties agree to review this agreement on an annual basis and to evaluate
the program and to discuss the need for any changes in the st,ructure05.
the program or in the delivery of services through the program.
     C.  The parties agree that the long term viability of a high quality
MPLP depends on stable long term funding for the program. The parties
agree to cooperate in fund-raising efforts for the MPLP.




Jeffrey S. Lehman                           Robert F. Gillett
University of Michigan                      Legal Services of
Law School                                  Southeastern
                                            Michigan


Dated                                       Dated
","

   Ed~ ~ ~ 1c q . j
- Lpi\,^                          ' 7
                                  WULJ
                                              ?\lei
                                             +&A.   l-
                                                                                                -.. .w c m i
                                                                                               mC k.M#orid.
                                                                                                                           gi . :.
                                                                                                               e r g;i(~;i~-~5.~
                                                                                                                   ~
                                                                                                               .. (Wij ~T&S .!.' .-
                                                                                                   On die cZ#WMC @ ~ O W (OIE*,;
                                                                                                                              .~IC..).:
                                                                                                                   -Hon Huge F i i x
sOuTHEA,TERN
L
--
                         ~ < ~ G LINC,
              ~ f i I ~---         w,                                                                               G e m1'. f!i2i~.%
                                                                                                                   351 US 12 (195C.1.)
                                                                                                                                    -
'Nash'tenaw County Office: 420 N. Fourth Ave., .4nn ,&hi,
                                                        MI 45104-1 197 (313) 665-6181                 M (313)665-2974

       February 7, 1997

       Karen Sarjeant
       Legal Services Corporation
       7 5 2 1 s St.,
                 ~    11th Floor
       Washington, D.C., 2 0 0 0 2


       re:     Michigan Poverty Law Program

       Dear Xs. Sarjeant,
            We spoke briefly in late December about this program, which is
       a collaborative state sxpport program.       The partners in the
       collaboration are the University of Michigan Law School ("UXLS"),
       the Michigan Migrant Legal Assistance Project ( "MMLAP") , and Legal
       Services of Southeastern Michigan ("LSSEM").
              I am enclosing three documents that provide additional
       background regarding the program: (1) the letter we sent out to
       the field describing our initial plans for the program and its
       services; ( 2 ) the coordination agreement between the partners;
       ! 3 ) the Michigan State Bar Foundation's "Support Services Outline"
       which guided us in planning the program.
            I ' m writing so that the Corporation is informed about the
       program and so that we can discuss any concerns that the
       Corporation might have about the program.
            In writing, I wish to emphasize several points. First, this
       project is a collaborative project among the three partners. While
       we will collaborate in planning the program and its services, each
       organization retains its own governance structure and ultimate
       control over its portion of the overall MPLP program.
            Second, LSSEM understands that as an LSC grantee all its funds
       are subject to the LSC restrictions. LSSEM will not engage in or
       support LSC-~rohihited activity through its MPLP subgrant or
       ctherwise.
            Third, in the extensive discussions that led to the formation
       of MPLP, there were three overriding goals: (1) to establish a
       state support system that emphasized support for field programs and


        JacksonCoanty OBBu: 180W. Michigan Ave., 800 Harris Bldg, Jackson,MI 49201 (517) 787-6111
        MOnnWLumwee County Oflbiae: 105 E Front St, Room 201, Monroe,MI 48161 (313) 241-8310 /(517) 2650850 /FAX (313)241-1381
        ;*.am@Irw hol.a;University ofMichgan Lawschool. HutchinsHall, A n n M n MI18109-1215
                                                                                ~            (313) 763-6591

        A member qgency ofre]ackso~Counly United W q        I   -   20                                               Q            rm
Karen Sarj eant
February 7, 1997
Page 2

that was responsive ec field programs; ( 2 ) to retain within the
state delivery system ~ h capacity
                           e        for a full range of advocacy for
low income persons; ( 3 , to bring new partners and new resources
into the legal services delivery syscem. None of the partners
could address all of these goals; together, we feel that we have
addressed them in a [cay that focuses on direct service by local
programs and assures tfiat a full range of services remain available
to Michigan's indigent cirizens.
     It is worth noting that this program exists as a direct result
of the 1995 LSC-Mandated State Planning Process, the ongoing
leadership of the Michigan State Bar Fcurldation in implementing the
Plan, and the support of the State Bar of Michigan, especially
through Its Task Force on Access to Justice.
     I'm happy to answer any questions you have about the program.
If LSC feels that there are changes that should be made to the
program design, we're very willing to discuss these.

                         Very Truly Yours,


                         Robert F. Gillett
                         Director
                                             APPENDIX - II

     OIG Staff Responsible for the Audit and the Report



Richard Adkins (Auditor-in-Charge)

David Gellman

Anthony Ramirez
